                                              NATIONAL SCIENCE FOUNSATIGN
                                                  4201 WILSON BOULEVARD
                                                 ARLINGTON, VIRG!NIA 22230




                           -
              OFFICE OF
          INSPECTOR GENERAL




--   '   MEMORANDUM


         DATE:             September 2'7, 1996

         TO:               Case No. I93 110047

         FROM:         s     p   e    c   i     a   l Agent

         VIA:                                 Special Agent-in-Ch

         RE:               Possible Duplicate Funding at


         On November 16, 1993, we received an allegation that                -.
         a company which had received 18 awards fiom NSF under the Small Business %ovation Research
         (SBIR) program, received duplicate SBIR awards fiom two federal agencies. Specifically, an NSF
         SBIR panel reviewer alleged that ATM submitted a phase I SBIR proposal to the Strategic Defense
         Initiative Organization (SDIO) in 1991 entitled,
         s i i a r proposal was submitted to NSF in 1992
         Both proposals were awarded, and final reports were submitt
         after reviewing these proposals and final reports, we found that there are significant differences and that
         they are not duplicate.

         Nonetheless, because of the siiarities between the two, we requested hrther ATM award
         documentation fiom the Department of Defense @OD), National Aeronautics and Space
         Administration (NASA), and the Department of Energy (DOE). SIA           Iu           S. Air Force
         Office of Special Investigations (OSI), and S/A      1        NASA Office of Inspector General
         (NASA OIG), assisted us in gathering documentation. The file has remained active pending review of
         this documentation.

         Upon their receipt, the following proposals and final reports were reviewed for possible duplication and
         were subsequently found to be substantially dierent and non-duplicating:
              Agency No.                                         Award Title

              SDIO

              ARMY

              NSF
              DOE.
              ARPA
--   -- - .                   ..   ____--..   -_ _        -
              USAF

              SDIO


              In October 1994, an additional 100+ ATM proposals which had been selected for award by NSF,
              NASq DOE, and DoD, were reviewed by s/-sing                      OSI document scanning technology.
              sIA-found             no duplication among these proposals. Finally, we reviewed the following
              proposals and final reports for possible duplication and f6&d them to be reporting directly related
              research, and in some cases overlapping research, but not duplicate research:

              AgenqNo.                                           Award Title

              NSF                         (Ph. I)
                                                     II prop.)



              NSF
              DOE
              SDIO

              As of this memo, NASA OIG and OSI have found no evidence of h d but are continuing their
              investigation of this company. As we have found no evidence to establish the existence of duplicate
              awards involving NSF f u n d i i further investigation is not warranted at this time.

              This case is closed.
